                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM


I   Case Number: A04070047                                                                       Page 1 of 1



                   OIG received an allegation that the subject1had engaged in plagiarism or intellectual property
          theft in a proposal submitted to NSF.~The alleged source document was a proposal3submitted to a
          private funding source in the United ~ i n ~ d o m    OIG
                                                                  . ~ arranged to receive a copy of the project
          description from the funding source for comparison. OIG found no evidence of verbatim copying or
          substantially similar text. Both proposals planned to achieve three goals, only one of which they
          shared in general terms. The author of the alleged source proposal and subject both proposed work
          with DNA; however, each proposed a different a starting material. The source proposal did not
          provide significant detail regarding his proposed methodology whereas the subject provided more
          substantive detail; both cited the published work of many of the same authors. The proposed
          methodology as described was for the most part common DNA methodology.

                  The subject's proposal appears to be distinct from the alleged source, utilizing different
          materials. Thus, the current body of evidence does not support the allegation of plagiarism or
          intellectual property theft.

                    Accordingly, this case is closed.




          1
          2
          3
          4




NSF OIG Form 2 (1 1/02)
